HHS/OIG, Audit - "Review of Medicaid Outpatient Drug Expenditures in Iowa
for the Period October 1, 2002, Through September 30, 2004," (A-07-06-04062)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient Drug Expenditures
in Iowa for the Period October 1, 2002, Through September 30, 2004,"
(A-07-06-04062)
July 19, 2007
Complete
Text of Report is available in PDF format (1.07 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether the Iowa Department of Human Servicess (the
State agency) claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.
Not all of the State agencys claims for reimbursement of Medicaid outpatient
drug expenditures complied with Federal requirements.  Of the $709
million ($466 million Federal share)
in Medicaid outpatient drug expenditures that the State agency claimed for
fiscal years 2003 and 2004, $154,245 (Federal share) represented expenditures for drug products that were
not eligible for Medicaid coverage because they were terminated drugs.  An
additional $1,079,386 (Federal share) represented expenditures for drug products
that were not listed on the quarterly drug tapes.
We recommended that the State agency (1) refund $154,245 to the Federal
Government for drug expenditures that were
not eligible for Medicaid coverage; (2) work with CMS to resolve
$1,079,386 in payments for drugs that were
not listed on the quarterly drug tapes and that may not have been eligible for
Medicaid coverage; and (3) strengthen internal controls to ensure that
claimed Medicaid drug expenditures comply with Federal requirements,
specifically by claiming expenditures only for drugs that are dispensed before
the termination dates listed on the quarterly drug tapes and verifying whether
drugs not listed on the quarterly drug tapes are covered under the Medicaid
program and notify CMS when drugs are missing from the tapes.  The State agency
partly agreed and partly disagreed with our recommendations.